No. _ _ _ _ __

In the Supreme Court of the United States
ADAM LLOYD COOPER,
PETITIONER,

v.
UNITED STATES OF AMERICA,
RESPONDENT,

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), Petitioner asks leave to file the
accompanying Petition for Writ of Certiorari to the United States Court of Appeals for the
Fifth Circuit without prepayment of costs and to proceed in forrna pauperis. Petitioner was
represented by counsel appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b)
and (c), both in the United States District Court for the Northern District of Texas and in
the United States Court of Appeals for the Fifth Circuit.

Respectfully submitted on February 8, 2021.

Counsel of Record
HAYGOOD LAW FIRM

522 North Grant Avenue
Odessa, Texas 79761
432.337.8514

lane@haygoodlawfirm.com

